                Department of Veterans Affairs
                Office of Inspector General


                  Office of Healthcare Inspections

Report No. 13-00890-220




    Combined Assessment Program
            Review of the 

     Alaska VA Healthcare System 

          Anchorage, Alaska 





June 20, 2013

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                                      CAP Review of the Alaska VA Healthcare System, Anchorage, AK



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 COS            Chief of Staff
                 CS             controlled substances
                 DOD            Department of Defense
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Alaska VA Healthcare System
                 FPPE           Focused Professional Practice Evaluation
                 FY             fiscal year
                 HPC            hospice and palliative care
                 HRCP           Home Respiratory Care Program
                 MEC            Medical Executive Committee
                 MH RRTP        Mental Health Residential Rehabilitation Treatment
                                Program
                 NA             not applicable
                 NC             noncompliant
                 OIG            Office of Inspector General
                 PCCT           Palliative Care Consult Team
                 PRC            Peer Review Committee
                 QM             quality management
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                                 CAP Review of the Alaska VA Healthcare System, Anchorage, AK



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishments......................................................................................                     2


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     5

  Medication Management – CS Inspections .............................................................                             7

  Coordination of Care – HPC ...................................................................................                   9

  Long-Term Home Oxygen Therapy ........................................................................                          11

  Preventable Pulmonary Embolism ..........................................................................                       12

  Continuity of Care – Fee Basis ...............................................................................                  13

  MH RRTP ...............................................................................................................         14


Appendixes
  A. Facility Profile ....................................................................................................        16

  B. VHA Patient Satisfaction Survey .......................................................................                      17

  C. VISN Director Comments ..................................................................................                    18

  D. Facility Director Comments ...............................................................................                   19

  E. OIG Contact and Staff Acknowledgments .........................................................                              24

  F. Report Distribution .............................................................................................            25

  G. Endnotes ...........................................................................................................         26





VA OIG Office of Healthcare Inspections
                                      CAP Review of the Alaska VA Healthcare System, Anchorage, AK



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
March 25, 2013.

Review Results: The review covered eight activities.                            We    made     no
recommendations in the following four activities:

   Environment of Care

   Preventable Pulmonary Embolism

   Continuity of Care – Fee Basis

   Mental Health Residential Rehabilitation Treatment Program

The facility’s reported accomplishments were the Department of Defense/VA Joint
Venture at Joint Base Elmendorf-Richardson and the facility’s telehealth program, both
of which have improved veteran access to care.

Recommendations: We made recommendations in the following four activities:
Quality Management: Ensure actions from peer reviews are completed and reported to
the Peer Review Committee. Consistently initiate Focused Professional Practice
Evaluations for newly hired licensed independent practitioners, and consistently report
results to the Medical Executive Committee. Review the quality of entries in the
electronic health record.

Medication Management – Controlled Substances Inspections: Ensure quarterly trend
reports summarize any discrepancies and problematic trends and identify potential
areas for improvement. Require that controlled substances inspectors receive annual
updates and refresher training. Adhere to local policy related to the return of “Green
Sheets” to the pharmacy, and ensure all elements required for the processing of
prescriptions are present. Maintain documentation of controlled substances inspector
orientation, training, annual updates, and annual competency assessments. Ensure
controlled substances inspectors initial and date Controlled Substances Inspecting
Official Checklists, VA controlled substances forms, and pharmacy activity logs.

Coordination of Care – Hospice and Palliative Care: Establish a process to track
hospice and palliative care consults that are not acted upon within 7 days of the
request.

Long-Term Home Oxygen Therapy: Ensure the Chief of Staff reviews Home Respiratory
Care Program activities in a timely manner. Identify high-risk home oxygen patients.



VA OIG Office of Healthcare Inspections                                                          i
                                      CAP Review of the Alaska VA Healthcare System, Anchorage, AK


Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 18–23, for the full
text of the Directors’ comments.) We will follow up on the planned actions until they are
completed.




                                                           JOHN D. DAIGH, JR., M.D.
                                                          Assistant Inspector General for 

                                                             Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                          ii
                                      CAP Review of the Alaska VA Healthcare System, Anchorage, AK



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	   Conduct recurring evaluations of selected health care facility operations, focusing
        on patient care quality and the EOC.

   	   Provide crime awareness briefings to increase employee understanding of the
        potential for program fraud and the requirement to refer suspected criminal
        activity to the OIG.

Scope
We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the review, we
inspected selected areas, conversed with managers and employees, and reviewed
clinical and administrative records. The review covered the following eight activities:

   	   QM

   	   EOC

   	   Medication Management – CS Inspections

   	   Coordination of Care – HPC

   	   Long-Term Home Oxygen Therapy

   	   Preventable Pulmonary Embolism

   	   Continuity of Care – Fee Basis

   	   MH RRTP

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2011, FY 2012, and FY 2013 through
March 28, 2013, and was done in accordance with OIG standard operating procedures
for CAP reviews.     We also asked the facility to provide the status on the
recommendations we made in our previous CAP report (Combined Assessment
Program Review of the Alaska VA Healthcare System, Anchorage, Alaska, Report
No. 11-02080-286, September 21, 2011).



VA OIG Office of Healthcare Inspections                                                         1
                                      CAP Review of the Alaska VA Healthcare System, Anchorage, AK


During this review, we presented crime awareness briefings for 122 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
160 responded. We shared survey results with the facility Director.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                         Reported Accomplishments

DOD/VA Joint Venture
The DOD/VA Joint Venture at Joint Base Elmendorf-Richardson has improved veteran
access to specialty care, emergency department services, and acute inpatient care. In
addition, in FY 2012, the joint venture was approved for a cardiology Joint Incentive
Fund initiative with a goal to recapture 70 percent of the DOD/VA cardiology
consultations and non-invasive cardiac diagnostic testing workload.

Telehealth Program
The facility’s telehealth program concluded FY 2012 with the highest Virtual Care
modality score in VISN 20. Successes in the program included integrating volunteers to
improve outreach, using telehealth technology to improve access to remote specialists,
increasing dermatology access, providing end user education, managing cases
remotely, and exceeding all Secure Messaging program goals.




VA OIG Office of Healthcare Inspections                                                         2
                                             CAP Review of the Alaska VA Healthcare System, Anchorage, AK



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility complied with selected
requirements within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NC needed improvement. Items that did not apply to this
facility are marked “NA.”

 NC                   Areas Reviewed                                        Findings
       There was a senior-level committee/group
       responsible for QM/performance
       improvement, and it included the required
       members.
       There was evidence that Inpatient Evaluation
       Center data was discussed by senior
       managers.
 X     Corrective actions from the protected peer        Nine months of PRC meeting minutes reviewed:
       review process were reported to the PRC.           None of the seven actions expected to be
                                                            completed were reported to the PRC.
 X     FPPEs for newly hired licensed independent        Seven profiles reviewed:
       practitioners complied with selected               Three FPPEs were not initiated.
       requirements.                                      Of the four FPPEs completed, results of two
                                                            were not reported to the MEC.
 NA    Local policy for the use of observation beds
       complied with selected requirements.
 NA    Data regarding appropriateness of
       observation bed use was gathered, and
       conversions to acute admissions were less
       than 30 percent, or the facility had reassessed
       observation criteria and proper utilization.
 NA    Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
 NA    Appropriate processes were in place to
       prevent incidents of surgical items being
       retained in a patient following surgery.
       The cardiopulmonary resuscitation review
       policy and processes complied with
       requirements for reviews of episodes of care
       where resuscitation was attempted.
 X     There was an EHR quality review committee,        Twelve months of EHR Committee meeting
       and the review process complied with              minutes reviewed:
       selected requirements.                             There was no evidence that the quality of
                                                           entries in the EHR was reviewed.



VA OIG Office of Healthcare Inspections                                                                  3
                                             CAP Review of the Alaska VA Healthcare System, Anchorage, AK


 NC             Areas Reviewed (continued)                                 Findings
       The EHR copy and paste function was
       monitored.
       Appropriate quality control processes were in
       place for non-VA care documents, and the
       documents were scanned into EHRs.
 NA    Use and review of blood/transfusions
       complied with selected requirements.
 NA    CLC minimum data set forms were transmitted
       to the data center with the required frequency.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       There was evidence at the senior leadership
       level that QM, patient safety, and systems
       redesign were integrated.
       Overall, there was evidence that senior
       managers were involved in performance
       improvement over the past 12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that actions from peer reviews
are completed and reported to the PRC.

2. We recommended that processes be strengthened to ensure that FPPEs for newly hired
licensed independent practitioners are consistently initiated and that results are consistently
reported to the MEC.

3. We recommended that processes be strengthened to ensure that the quality of entries in
the EHR is reviewed.




VA OIG Office of Healthcare Inspections                                                                4
                                              CAP Review of the Alaska VA Healthcare System, Anchorage, AK


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements.2

We inspected the audiology, primary care, women’s health, and occupational and physical
therapy outpatient clinics. Additionally, we reviewed relevant documents and conversed with
key employees and managers. The table below shows the areas reviewed for this topic. Items
that did not apply to this facility are marked “NA.” The facility generally met requirements. We
made no recommendations.

 NC           Areas Reviewed for General EOC                                Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       The facility had a policy that detailed cleaning
       of equipment between patients.
       Patient care areas were clean.
       Fire safety requirements were met.
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Sensitive patient information was protected,
       and patient privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
         Areas Reviewed for the Women’s Health
                             Clinic
       The Women Veterans Program Manager
       completed required annual EOC evaluations,
       and the facility tracked women’s health-related
       deficiencies to closure.
       Fire safety requirements were met.
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.




VA OIG Office of Healthcare Inspections                                                                 5
                                          CAP Review of the Alaska VA Healthcare System, Anchorage, AK


 NC      Areas Reviewed for the Women’s Health                          Findings
                      Clinic (continued)
       Patient privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
        Areas Reviewed for Physical Medicine and
               Rehabilitation Therapy Clinics
       Fire safety requirements were met.
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Patient privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.




VA OIG Office of Healthcare Inspections                                                             6
                                             CAP Review of the Alaska VA Healthcare System, Anchorage, AK


Medication Management – CS Inspections
The purpose of this review was to determine whether the facility complied with requirements
related to CS security and inspections.3

We reviewed relevant documents and conversed with key employees. We also reviewed the
training files of all CS Coordinators and 10 CS inspectors and inspection documentation from
3 CS areas and the outpatient pharmacy. The table below shows the areas reviewed for this
topic. The areas marked as NC needed improvement. Items that did not apply to this facility
are marked “NA.”

 NC                    Areas Reviewed                                        Findings
       Facility policy was consistent with VHA
       requirements.
       VA police conducted annual physical security
       surveys of the pharmacy/pharmacies, and
       any identified deficiencies were corrected.
 NA    Instructions for inspecting automated
       dispensing machines were documented,
       included all required elements, and were
       followed.
 X     Monthly CS inspection findings summaries         Summary of CS inspection findings for past
       and quarterly trend reports were provided to     6 months and quarterly trend reports for past
       the facility Director.                           4 quarters reviewed:
                                                         Quarterly trend reports did not clearly
                                                           summarize discrepancies and problematic
                                                           trends nor did they identify potential areas for
                                                           improvement.
       CS Coordinator position description(s) or
       functional statement(s) included duties, and
       CS Coordinator(s) completed required
       certification and were free from conflicts of
       interest.
 X     CS inspectors were appointed in writing,         Appointments, certifications, and training
       completed required certification and training,   records reviewed:
       and were free from conflicts of interest.         CS inspectors did not receive annual updates
                                                           and refresher training regarding problematic
                                                           issues identified through external survey
                                                           findings and other quality control measures.
       Non-pharmacy areas with CS were inspected
       in accordance with VHA requirements, and
       inspections included all required elements.
       Pharmacy CS inspections were conducted in
       accordance with VHA requirements and
       included all required elements.




VA OIG Office of Healthcare Inspections                                                                       7
                                            CAP Review of the Alaska VA Healthcare System, Anchorage, AK


 NC           Areas Reviewed (continued)                                   Findings
  X    The facility complied with any additional      Facility policy on CS procedures and inspection
       elements required by VHA or local policy.      of CS reviewed:
                                                       Requirements regarding pharmacy
                                                         processing of “Green Sheets” and filling of CS
                                                         prescriptions were not adhered to.
                                                       Documentation of orientation, training, annual
                                                         updates, and annual competency
                                                         assessments for CS inspectors was not
                                                         maintained.
                                                       CS Inspecting Official Checklists, VA CS
                                                         forms, and pharmacy activity logs were not
                                                         initialed and dated by CS inspectors.

Recommendations

4. We recommended that processes be strengthened to ensure that quarterly trend reports
summarize any discrepancies and problematic trends and identify potential areas for
improvement.

5. We recommended that processes be strengthened to ensure that CS inspectors receive
annual updates and refresher training regarding problematic issues identified through external
survey findings and other quality control measures.

6. We recommended that processes be strengthened to ensure that local policy related to the
return of “Green Sheets” to the pharmacy is adhered to and that all elements required for the
processing of prescriptions are present.

7. We recommended that processes be strengthened to ensure that documentation of CS
inspector orientation, training, annual updates, and annual competency assessments are
maintained.

8. We recommended that processes be strengthened to ensure that CS inspectors initial and
date CS Inspecting Official Checklists, VA CS forms, and pharmacy activity logs.




VA OIG Office of Healthcare Inspections                                                               8
                                                     CAP Review of the Alaska VA Healthcare System, Anchorage, AK


Coordination of Care – HPC
The purpose of this review was to determine whether the facility complied with selected
requirements related to HPC, including PCCT, consults, and inpatient services.4

We reviewed relevant documents, 13 EHRs of outpatients who had PCCT consults, and
8 non-HPC staff training records, and we conversed with key employees. The table below
shows the areas reviewed for this topic. The area marked as NC needed improvement. Items
that did not apply to this facility are marked “NA.”

    NC                     Areas Reviewed                                                 Findings
    NA1   A PCCT was in place and had the dedicated
          staff required.
          The PCCT actively sought patients
          appropriate for HPC.
          The PCCT offered end-of-life training.
          Selected non-HPC staff had end-of-life
          training.
          The facility had a VA liaison with community
          hospice programs.
          The PCCT promoted patient choice of
          location for hospice care.
    NA    The CLC-based hospice program offered
          bereavement services.
          The HPC consult contained the word
          “palliative” or “hospice” in the title.
          HPC consults were submitted through the
          Computerized Patient Record System.
    X     The PCCT responded to consults within the                Three consults were not acted upon within
          required timeframe and tracked consults that              7 days of the request and had not been
          had not been acted upon.                                  tracked.
          Consult responses were attached to HPC
          consult requests.
    NA    The facility submitted the required electronic
          data for HPC through the VHA Support
          Service Center.
    NA    An interdisciplinary team care plan was
          completed for HPC inpatients within the
          facility’s specified timeframe.
    NA    HPC inpatients were assessed for pain with
          the frequency required by local policy.
    NA    HPC inpatients’ pain was managed according
          to the interventions included in the care plan.




1
 The facility is not required to have a PCCT since it has no inpatients. Functions typically performed by the PCCT are
performed by Home Based Primary Care staff.


VA OIG Office of Healthcare Inspections                                                                                  9
                                            CAP Review of the Alaska VA Healthcare System, Anchorage, AK


 NC            Areas Reviewed (continued)                                 Findings
 NA     HPC inpatients were screened for an
        advanced directive upon admission and
        according to local policy.
        The facility complied with any additional
        elements required by VHA or local policy.

Recommendation

9. We recommended that a process be established to track HPC consults that are not acted
upon within 7 days of the request.




VA OIG Office of Healthcare Inspections                                                              10
                                              CAP Review of the Alaska VA Healthcare System, Anchorage, AK


Long-Term Home Oxygen Therapy
The purpose of this review was to determine whether the facility complied with requirements for
long-term home oxygen therapy in its mandated HRCP.5

We reviewed relevant documents and 35 EHRs of patients enrolled in the home oxygen
program, and we conversed with key employees. The table below shows the areas reviewed for
this topic. The areas marked as NC needed improvement. Items that did not apply to this
facility are marked “NA.”

 NC                  Areas Reviewed                                         Findings
       There was a local policy to reduce the fire
       hazards of smoking associated with oxygen
       treatment.
 X     The COS reviewed HRCP activities at least          Although we found evidence of reviews by
       quarterly.                                          the COS, the reviews were not timely and
                                                           were not conducted quarterly.
       The facility had established a home
       respiratory care team.
       Contracts for oxygen delivery contained all
       required elements and were monitored
       quarterly.
       Home oxygen program patients had active
       orders/prescriptions for home oxygen and
       were re-evaluated for home oxygen therapy
       annually after the first year.
       Patients identified as high risk received
       hazards education at least every 6 months
       after initial delivery.
 X     High-risk patients were identified and referred    We found no evidence that patients were
       to a multidisciplinary clinical committee for       being identified as high risk.
       review.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

10. We recommended that processes be strengthened to ensure that the COS reviews HRCP
activities in a timely manner.

11. We recommended that processes be strengthened to ensure that high-risk home oxygen
patients are identified.




VA OIG Office of Healthcare Inspections                                                                11
                                                      CAP Review of the Alaska VA Healthcare System, Anchorage, AK


Preventable Pulmonary Embolism
The purpose of this review was to evaluate the care provided to patients who were treated at the
facility and developed potentially preventable pulmonary embolism.6

We reviewed relevant documents and five EHRs of patients with confirmed diagnoses of
pulmonary embolismb January 1–June 30, 2012. The table below shows the areas reviewed for
this topic. Items that did not apply to this facility are marked “NA.” The facility generally met
requirements. We made no recommendations.

    NC                   Areas Reviewed                                                    Findings
         Patients with potentially preventable
         pulmonary emboli received appropriate
         anticoagulation medication prior to the event.
         No additional quality of care issues were
         identified with the patients’ care.
         The facility complied with any additional
         elements required by VHA or local
         policy/protocols.




b
 A sudden blockage in a lung artery usually caused by a blood clot that travels to the lung from a vein in the body, most
commonly in the legs.


VA OIG Office of Healthcare Inspections                                                                                     12
                                            CAP Review of the Alaska VA Healthcare System, Anchorage, AK


Continuity of Care – Fee Basis
The purpose of this review was to evaluate whether information from patients’ community
hospitalizations at VA expense was available to the VA clinic providers. Such information is
essential to continuity of care and optimal patient outcomes.

We reviewed relevant documents and 30 EHRs of patients who had been hospitalized from
January to December 2012 in the local community at VA expense, and we conversed with key
employees. The table below shows the areas reviewed for this topic. Items that did not apply to
this facility are marked “NA.” The facility generally met requirements. We made no
recommendations.

 NC                   Areas Reviewed                                      Findings
       Clinical information was available to the
       primary care team for the clinic visit
       subsequent to the hospitalization
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                              13
                                             CAP Review of the Alaska VA Healthcare System, Anchorage, AK


MH RRTP
The purpose of this review was to determine whether the facility’s Domiciliary Care for
Homeless Veterans Program complied with selected EOC requirements.7

We reviewed relevant documents, inspected the Domiciliary Care for Homeless Veterans
Program, and conversed with key employees. The table below shows the areas reviewed for
this topic. Items that did not apply to this facility are marked “NA.” The facility generally met
requirements. We made no recommendations.

 NC                    Areas Reviewed                                      Findings
       The residential environment was clean and in
       good repair.
       Appropriate fire extinguishers were available
       near grease producing cooking devices.
       There were policies/procedures that
       addressed safe medication management and
       contraband detection.
       Monthly MH RRTP self-inspections were
       conducted, documented, and included all
       required elements, work orders were
       submitted for items needing repair, and any
       identified deficiencies were corrected.
       Contraband inspections, staff rounds of all
       public spaces, daily bed checks, and resident
       room inspections for unsecured medications
       were conducted and documented.
       Written agreements acknowledging resident
       responsibility for medication security were in
       place.
       The main point(s) of entry had keyless entry
       and closed circuit television monitoring, and
       all other doors were locked to the outside and
       alarmed.
       Closed circuit television monitors with
       recording capability were installed in public
       areas but not in treatment areas or private
       spaces, and there was signage alerting
       veterans and visitors that they were being
       recorded.
       There was a process for responding to
       behavioral health and medical emergencies,
       and staff were able to articulate the
       process(es).
       In mixed gender units, women veterans’
       rooms were equipped with keyless entry or
       door locks, and bathrooms were equipped
       with door locks.




VA OIG Office of Healthcare Inspections                                                               14
                                           CAP Review of the Alaska VA Healthcare System, Anchorage, AK


 NC            Areas Reviewed (continued)                                Findings
       Medications in resident rooms were secured.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                             15
                                             CAP Review of the Alaska VA Healthcare System, Anchorage, AK
                                                                                              Appendix A

                      Facility Profile (Anchorage/463) FY 2012c
Type of Organization                                                              Secondary
Complexity Level                                                                  3-Low complexity
Affiliated/Non-Affiliated                                                         Non-Affiliated
Total Medical Care Budget in Millions                                             $163.0
Number of:
    Unique Patients                                                              18,557
    Outpatient Visits                                                            172,352
    Unique Employeesd                                                            414
Type and Number of Operating Beds: (through August 2012)
    Hospital                                                                     NA
    CLC                                                                          NA
    Mental Health                                                                50
Average Daily Census:
    Hospital                                                                     NA
    CLC                                                                          NA
    Mental Health                                                                27
Number of Community Based Outpatient Clinics                                      3
Location(s)/Station Number(s)                                                     Fairbanks/463GA
                                                                                  Kenai/463GB
                                                                                  Mat-Su/463GC
VISN Number                                                                       20




c
    All data is for FY 2012 except where noted.

d
    Unique employees involved in direct medical care (cost center 8200). 



VA OIG Office of Healthcare Inspections                                                               16
                                      CAP Review of the Alaska VA Healthcare System, Anchorage, AK
                                                                                       Appendix B

                        VHA Patient Satisfaction Survey 

VHA has identified patient satisfaction scores as significant indicators of facility
performance. Patients are surveyed monthly. Table 1 below shows facility, VISN, and
VHA overall inpatient and outpatient satisfaction scores for FY 2012.

Table 1

                 Inpatient Scores                          Outpatient Scores
                     FY 2012                                   FY 2012
              Inpatient      Inpatient      Outpatient   Outpatient     Outpatient    Outpatient
              Score          Score          Score        Score          Score         Score
              Quarters 1–2   Quarters 3–4   Quarter 1    Quarter 2      Quarter 3     Quarter 4
Facility        *              *             48.2        50.5           54.2          50.3
VISN            65.3           65.3          51.5        49.3           49.9          49.8
VHA             63.9           65.0          55.0        54.7           54.3          55.0
 *The facility does not have inpatient beds.




VA OIG Office of Healthcare Inspections                                                            17
                                      CAP Review of the Alaska VA Healthcare System, Anchorage, AK
                                                                                       Appendix C
                                 VISN Director Comments



               Department of
               Veterans Affairs 	                                 Memorandum


       Date:            May 15, 2013 


       From:            Director, Northwest Network (10N20) 


       Subject:         CAP Review of the Alaska VA Healthcare System, 

                        Anchorage, AK

       To: 	            Director, Seattle Office of Healthcare Inspections (54SE)

                        Director, Management Review Service (VHA 10AR MRS
                        OIG CAP CBOC)

       1. Thank you for the opportunity to provide a status report on follow-up to
       the findings from the Combined Assessment Program Review of the
       Alaska VA Healthcare System, Anchorage, AK.

       2. Attached please find the facility concurrence and response to the
       finding from the review.

       3. If you have additional questions or need further information, please
       contact Susan Gilbert, Survey Coordinator, VISN 20 at (360) 567-4678.


         (original signed by:)
       Lawrence H. Carroll




VA OIG Office of Healthcare Inspections                                                        18
                                      CAP Review of the Alaska VA Healthcare System, Anchorage, AK
                                                                                       Appendix D
                             Facility Director Comments



               Department of
               Veterans Affairs                                   Memorandum


       Date:            May 23, 2013

       From:            Director, Alaska VA Healthcare System (463/00)

       Subject:         CAP Review of the Alaska VA Healthcare System,
                        Anchorage, AK

       To:              Director, Northwest Network (10N20)

       1. The findings from the Alaska VA Healthcare System Combined
       Assessment Program (CAP) review by the Office of the Inspector General
       (OIG) conducted March 25, through March 28, 2013 have been reviewed.

       2. Attached are the facility responses addressing each recommendation,
       including actions that are in progress and those that have been
       completed.


          (original signed by:)
       Susan M. Yeager, MS
       Director




VA OIG Office of Healthcare Inspections                                                        19
                                      CAP Review of the Alaska VA Healthcare System, Anchorage, AK


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
actions from peer reviews are completed and reported to the PRC.

Concur

Target date for completion: September 1, 2013

Facility response: The peer review processes have been strengthened to ensure action
items from peer reviews are completed and reported to the Peer Review Committee
(PRC). We will monitor the PRC to ensure that all actions from peer reviews are
tracked to completion.

Recommendation 2. We recommended that processes be strengthened to ensure that
FPPEs for newly hired licensed independent practitioners are consistently initiated and
that results are consistently reported to the MEC.

Concur

Target date for completion: September 1, 2013

Facility response: A tracking spreadsheet has been developed to be maintained by the
Credentialing Manager on a monthly basis. FPPE results will be reported to the MEC
and the tracking spreadsheet indicates whether FPPE will be continued or if the
provider will transition to OPPE. We will monitor the FPPE process to ensure FPPEs
are consistently initiated for all new providers and that FPPE results are reported to the
MEC.

Recommendation 3. We recommended that processes be strengthened to ensure that
the quality of entries in the EHR is reviewed.

Concur

Target date for completion: September 1, 2013

Facility response: A work group evaluated our monitoring process against Joint
Commission and VA standards used by each of the clinical services for medical record
review. We clarified the elements used during the auditing process to ensure
information is present, accurate, legible, authenticated and completed on time. Analysis
of outcomes, discussions and corrective actions are documented in the Medical
Records Committee (MRC) minutes. The chair of the MRC reports results to the


VA OIG Office of Healthcare Inspections                                                        20
                                      CAP Review of the Alaska VA Healthcare System, Anchorage, AK


Medical Executive Board on a quarterly basis. The reporting process was strengthened
by providing additional administrative support to ensure minutes are completed timely,
accurately, and routed appropriately. Review teams are monitoring both clinical and
administrative aspects of care.

Recommendation 4. We recommended that processes be strengthened to ensure that
quarterly trend reports summarize any discrepancies and problematic trends and
identify potential areas for improvement.

Concur

Target date for completion: September 1, 2013

Facility response: Beginning with the 3rd Qtr FY13 report, the Controlled Substance
Inspection (CSI) Quarterly Trend Reports will be done in a narrative format in addition to
the current graph and table format.         Narrative reports will clearly summarize
discrepancies and problematic trends, as well as potential areas for improvement. We
will monitor quarterly trend reports to ensure that any discrepancies and problematic
trends and potential areas for improvement are identified.

Recommendation 5. We recommended that processes be strengthened to ensure that
CS inspectors receive annual updates and refresher training regarding problematic
issues identified through external survey findings and other quality control measures.

Concur

Target date for completion: June 30, 2013

Facility response: The annual controlled substance inspector update and refresher
training will be completed by June 2013. This training will be tracked in TMS to ensure
all CS inspectors complete the required annual refresher training.

Recommendation 6. We recommended that processes be strengthened to ensure that
local policy related to the return of “Green Sheets” to the pharmacy is adhered to and
that all elements required for the processing of prescriptions are present.

Concur

Target date for completion: September 1, 2013

Facility response: The Chief of Pharmacy has reviewed and revised the policy related to
the return of “Green Sheets.” The “Green Sheets” are no longer batched and
addressed on a weekly basis, they are addressed as they are returned to the pharmacy
on a daily basis. The Chief of Pharmacy is monitoring to ensure that policy is adhered
to. The presence of elements required for the processing of prescriptions are verified
during monthly Controlled Substance Inspections and via review when Green Sheets
are returned from the Narcotic Area of Use (NAOU). These elements include patient
identifiers, date of administration, amount of medication administered, and signature of


VA OIG Office of Healthcare Inspections                                                        21
                                      CAP Review of the Alaska VA Healthcare System, Anchorage, AK


the staff that administered it. When there is wastage of controlled substances, it will be
annotated on the Green Sheet and accompanied by two signatures.

Recommendation 7. We recommended that processes be strengthened to ensure that
documentation of CS inspector orientation, training, annual updates, and annual
competency assessments are maintained.

Concur

Target date for completion: September 30, 2013

Facility response: The annual update will be completed in June 2013. New CSI’s will be
appointed, oriented, and trained in 4th Quarter FY13. Training will be documented in
TMS. Competency will be documented and maintained both in the employee’s
competency folder and by the CSI coordinator.

Recommendation 8. We recommended that processes be strengthened to ensure that
CS inspectors initial and date CS Inspecting Official Checklists, VA CS forms, and
pharmacy activity logs.

Concur

Target date for completion: September 30, 2013

Facility response: The inspection checklist has been modified to include instructions to
initial and date each item as they are completed. Pharmacy vault inventories are
currently signed by the inspectors. The CSI coordinator will monitor all CSI checklists
and pharmacy vault inventories to ensure the inspectors initial and date all forms.

Recommendation 9. We recommended that a process be established to track HPC
consults that are not acted upon within 7 days of the request.

Concur

Target date for completion: September 1, 2013

Facility response: A consult timeliness monitor for HPC was established on the
organization dashboard. The consult manager enters data monthly and communicates
findings to the Home Based Primary Care manager for any needed corrective action.
These results are reported to the medical record committee quarterly. A review cycle
has been established to ensure that all appropriate consult services are being
monitored.




VA OIG Office of Healthcare Inspections                                                        22
                                      CAP Review of the Alaska VA Healthcare System, Anchorage, AK


Recommendation 10. We recommended that processes be strengthened to ensure
that the COS reviews HRCP activities in a timely manner.

Concur

Target date for completion: September 1, 2013

Facility response: The AVAHS has strengthened processes to ensure the COS reviews
the activities of the Home Respiratory Care Program. The Home Respiratory Care
Committee minutes will be reviewed and signed by the COS for concurrence within two
weeks of the meeting. The HRCP committee chair will monitor for compliance.

Recommendation 11. We recommended that processes be strengthened to ensure
that high-risk home oxygen patients are identified.

Concur

Target date for completion: September 1, 2013

Facility response: We will develop high-risk criteria that will include patients who smoke.
The referring clinician will indicate if the patient is high-risk on the consult for home
oxygen. The Home Oxygen Coordinator or the Respiratory Practitioner will inform the
contracted home oxygen vendor when a patient is at high-risk status for smoking while
oxygen is in use. A list of high-risk patients will be maintained and Home Oxygen
Coordinator the will track the list for patient follow-up and education and will report to
the Home Respiratory Care Committee.




VA OIG Office of Healthcare Inspections                                                        23
                                      CAP Review of the Alaska VA Healthcare System, Anchorage, AK
                                                                                       Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Sarah Lutter, RN, JD, Team Leader
Contributors            M. Davidson Martin
                        Sami O’Neill, MA
                        Noel Rees, MPA
                        Susan Tostenrude, MS
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Marc Lainhart, BS
                        Karen Moore, RNC, MSHA
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                        24
                                      CAP Review of the Alaska VA Healthcare System, Anchorage, AK
                                                                                       Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, Northwest Network (10N20)
Director, Alaska VA Healthcare System (463/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Mark Begich, Lisa Murkowski
U.S. House of Representatives: Don Young


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                        25
                                               CAP Review of the Alaska VA Healthcare System, Anchorage, AK
                                                                                                Appendix G

                                                   Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
	 VHA Directive 2008-007, Resident Assessment Instrument (RAI) Minimum Data Set (MDS), February 4, 2008;
    VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
    (MDS), January 4, 2013.
2
   References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VA National Center for Patient Safety, “Ceiling mounted patient lift installations,” Patient Safety Alert 10-07,
    March 22, 2010.
	 Various requirements of The Joint Commission, the Centers for Disease Control and Prevention, the Occupational
    Safety and Health Administration, the National Fire Protection Association, the American National Standards
    Institute, the Association for the Advancement of Medical Instrumentation, and the International Association of
    Healthcare Central Service Material Management.
3
   References used for this topic included:
	 VHA Handbook 1108.01, Controlled Substances (Pharmacy Stock), November 16, 2010. 
	 VHA Handbook 1108.02, Inspection of Controlled Substances, March 31, 2010.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA, “Clarification of Procedures for Reporting Controlled Substance Medication Loss as Found in VHA
    Handbook 1108.01,” Information Letter 10-2011-004, April 12, 2011.
	 VA Handbook 0730, Security and Law Enforcement, August 11, 2000.
	 VA Handbook 0730/2, Security and Law Enforcement, May 27, 2010.
4
   References used for this topic included:
	 VHA Directive 2008-066, Palliative Care Consult Teams (PCCT), October 23, 2008.
	 VHA Directive 2008-056, VHA Consult Policy, September 16, 2008.
	 VHA Handbook 1004.02, Advanced Care Planning and Management of Advance Directives, July 2, 2009.
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Directive 2009-053, Pain Management, October 28, 2009.
	 Under Secretary for Health, “Hospice and Palliative Care are Part of the VA Benefits Package for Enrolled
    Veterans in State Veterans Homes,” Information Letter 10-2012-001, January 13, 2012.
5
   References used for this topic were:
	 VHA Directive 2006-021, Reducing the Fire Hazard of Smoking When Oxygen Treatment is Expected,
    May 1, 2006.
	 VHA Handbook 1173.13, Home Respiratory Care Program, November 1, 2000.
6
   The reference used for this topic was:
	 VHA Office of Analytics and Business Intelligence, External Peer Review Technical Manual, FY2012 quarter 4,
    June 15, 2012, p. 80–98. 
     



VA OIG Office of Healthcare Inspections                                                                         26
                                             CAP Review of the Alaska VA Healthcare System, Anchorage, AK



7
    References used for this topic were: 

 VHA Handbook 1162.02, Mental Health Residential Rehabilitation Treatment Program (MH RRTP), 

    December 22, 2010.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 Requirements of the VHA Center for Engineering and Occupational Safety and Health and the National Fire
    Protection Association.




VA OIG Office of Healthcare Inspections                                                                      27
